U.S. Department of Agriculture
 Office of Inspector General
     Great Plains Region
         Audit Report



     FARM SERVICE AGENCY
    CONSERVATION RESERVE
    ENHANCEMENT PROGRAM




              Report No.
              03099-45-KC
              October 2001
                UNITED STATES DEPARTMENT OF AGRICULTURE

                                OFFICE OF INSPECTOR GENERAL
                                    Washington, D.C. 20250


DATE:        October 25, 2001

REPLY TO
ATTN OF:     03099-45-KC

SUBJECT:     Conservation Reserve Enhancement Program

TO:          James R. Little
             Administrator
             Farm Service Agency

ATTN:        T. Mike McCann
             Director
             Operations and Review Analysis Staff


This report presents the results of our survey of the Conservation Reserve
Enhancement Program. Your October 11, 2001, response to the draft report is included
as exhibit A with excerpts and the Office of Inspector General’s position incorporated
into the relevant sections of the report. Also, the contract numbers shown in Finding
No. 2 of the official draft have been deleted from this report due to privacy act
considerations.

The response showed general concurrence with the audit findings and
recommendations. However, it was not adequate to reach management decision
because the timeframes for implementing the planned corrective actions were not
shown. In accordance with Departmental Regulation 1720-1, please furnish a reply
within 60 days showing the actual or planned timeframes for implementing each audit
recommendation. Please note that the regulation requires a management decision to
be reached on all findings and recommendations within a maximum of 6 months from
report issuance.

We appreciate the courtesies and cooperation extended to us by members of your staff
during the review.


/s/

RICHARD D. LONG
Assistant Inspector General
  for Audit
                      EXECUTIVE SUMMARY


                                      The Farm Service Agency (FSA), with
     RESULTS IN BRIEF                 assistance from the Natural Resources
                                      Conservation Service (NRCS), administers the
                                      Conservation Reserve Enhancement Program
         (CREP). The program is designed to address significant environmental
         concerns in specific geographical areas through joint Federal-State
         partnership agreements. Participating State entities are responsible for
         funding a significant portion, such as 20 percent of the associated project
         costs. Producers approved for program benefits agree to establish and
         maintain approved conservation practices during the contract period which
         generally runs for 10-15 years. In return, producers receive various
         financial incentives, including annual rental payments that approximate
         local cash rent values. As of June 23, 2000, the Department had entered
         into Memorandums of Understanding with 13 States involving project
         outlays of about $2.2 billion. The purpose of our review was to determine
         whether FSA implemented reasonable controls to promote compliance
         with program requirements. This included a limited amount of compliance
         testing.

           The survey disclosed that material internal controls provided over the
           program were generally functioning as prescribed by management.
           However, we found that NRCS personnel were not completing annual
           status reviews as required. This did not provide FSA with reasonable
           assurance that conservation plans were being timely or properly applied.
           It also permitted NRCS to receive reimbursements for services that were
           not performed. We also found that FSA had not established requirements
           for obtaining data on the easement periods applicable to CREP acreages.
           This could result in the improper enrollment of such acreages in other
           available Federal programs, such as the Conservation Reserve Program
           (CRP), during the period between expiration of the CREP contract and the
           associated easement. Also, differences between the CREP acreages
           shown on FSA records and those determined from land surveys may not
           be treated in a consistent manner.

                                  We recommended that FSA direct State
 KEY RECOMMENDATIONS              offices (STO) to provide feedback on
                                  situations where NRCS was not fulfilling its
                                  status review responsibilities. This included
        exploring alternatives for ensuring compliance with this program
        requirement. We also recommended that FSA assess the need for

USDA-OIG-A/03099-45-KC                                                       Page i
           requiring participating State entities to furnish data on the easement
           periods applicable to CREP acres.

                                     The written comments on the draft report (see
       FSA RESPONSE                  exhibit A) showed general agreement with the
                                     audit findings and recommendations.

                                   We concur with the planned corrective actions
        OIG POSITION               for each audit recommendation. However, we
                                   will need to be advised of the actual or
                                   planned timeframes for implementation in
          order to reach management decision.




USDA-OIG-A/03099-45-KC                                                     Page ii
                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................i
   RESULTS IN BRIEF....................................................................................................i
   KEY RECOMMENDATIONS .......................................................................................i
   FSA RESPONSE........................................................................................................ii
   OIG POSITION...........................................................................................................ii
TABLE OF CONTENTS................................................................................................iii
INTRODUCTION............................................................................................................1
   BACKGROUND .........................................................................................................1
   OBJECTIVES .............................................................................................................2
   SCOPE .......................................................................................................................2
   METHODOLOGY .......................................................................................................3
FINDINGS AND RECOMMENDATIONS .......................................................................5
   CHAPTER 1 ...............................................................................................................5
   ADDITIONAL PROGRAM CONTROLS ARE NEEDED ............................................5
   FINDING NO. 1 ..........................................................................................................5
   RECOMMENDATION NO. 1 ......................................................................................6
   FINDING NO. 2 ..........................................................................................................7
   RECOMMENDATION NO. 2 ......................................................................................8
   FINDING NO. 3 ..........................................................................................................9
   RECOMMENDATION NO. 3 ....................................................................................10
   EXHIBIT A – FSA RESPONSE TO DRAFT REPORT .............................................11




USDA-OIG-A/03099-45-KC                                                                                                 Page iii
                        INTRODUCTION

                                      The Federal Agriculture Improvement
       BACKGROUND                     and Reform Act of 1996 authorized
                                      implementation of the Conservation
                                      Reserve      Enhancement       Program
         (CREP).      The program is designed to address significant
         environmental concerns through a joint Federal-State partnership.
         Interested State entities develop project proposals that must be
         consistent with all legislative and regulatory aspects of the
         associated Conservation Reserve Program (CRP). The project
         proposals, which specify the responsibilities applicable to each
         party, are submitted to the Department for review by an interagency
         panel.    Any panel comments are returned to the State for
         consideration in developing the final proposal. The final proposal is
         set forth in a Memorandum of Understanding between the State’s
         Governor and the Secretary of Agriculture.

          The primary CREP objectives are to coordinate Federal and non-
          Federal resources to address specific conservation objectives in a
          cost-effective manner and to improve water quality, erosion control,
          and wildlife habitat related to agricultural use in specific geographic
          areas.

          The CREP offers financial incentives to encourage producers to
          remove land from agricultural production for periods up to 15 years
          through a formal contract process. The Farm Service Agency
          (FSA), with technical assistance from the Natural Resources
          Conservation Service (NRCS), administers the individual CREP
          contracts. Participating State entities, such as Soil and Water
          Conservation Districts (SWCD) and Boards of Soil and Water
          Resources (BSWR), also provide direct technical and financial
          assistance.

          The CREP is an extension of the existing CRP. Therefore,
          producer and land eligibility requirements are the same for both
          programs (i.e., land must have been owned or operated by the
          applicant for the previous   12 months, must have been planted to
          crops in 2 of the last 5 years, and must be physically and legally
          capable of being cropped). As with the CRP, producers with
          approved CREP contracts receive annual rental payments that
          reflect local cash rent values and other cost-share incentives.
          However, differences do exist between the two programs. For



USDA-OIG-A/03099-45-KC                                                   Page 1
          example, the CREP is designed to target a specific geographic area
          such as a watershed. Also, CREP represents a partnership effort
          between the Federal government and interested States. The
          CREP is also results oriented and requires States to establish
          measurable objectives and conduct annual monitoring to measure
          progress toward established goals. This includes the preparation of
          annual reports showing project accomplishments. The CREP is
          also flexible and can be adapted to meet local conditions within
          existing legal constraints.

          On February 29, 2000, the Commodity Credit Corporation (CCC),
          FSA, and NRCS entered into a Memorandum of Understanding that
          specified the CRP responsibilities applicable to each agency. The
          agreement showed, in part, that NRCS was responsible for
          ensuring a sufficient number of qualified employees available to
          provide timely CRP determinations for all acres offered during
          signup periods. This included the preparation and modification of
          conservation plans and other program documents on an as needed
          basis. NRCS was also responsible for conducting no more than
          three annual status reviews on approved offers. The agreement
          further provided that CCC would reimburse NRCS a total of $456
          for each offer enrolled in the program that consisted of any newly
          enrolled acreage.

          The Department originally established a maximum enrollment of
          100,000 CREP acres per State. However, the Department is
          monitoring that ceiling and will determine the need for any future
          adjustments.

                                     The primary objectives of this review
        OBJECTIVES                   were to identify and assess the
                                     sufficiency of controls designed to
                                     promote compliance with program
         requirements and to determine whether such controls were
         functioning as prescribed. The internal controls reviewed included
         those over producer, payment and practice eligibility; payment
         limitation; and status reviews and associated program monitoring
         and reporting requirements.

                                         Our review was generally conducted
           SCOPE                         between August and September 2000
                                         and included visits to the FSA and
                                         NRCS offices located in Washington,
          D.C., Springfield, Illinois, and St. Paul, Minnesota. We also visited
          the SWCD and BSWR State offices located in Springfield, Illinois,
          and St. Paul, Minnesota. In addition, we visited the local FSA,
          NRCS, and SWCD offices in two Illinois counties (Cass and



USDA-OIG-A/03099-45-KC                                                 Page 2
           Schuyler) and two Minnesota counties (Redwood and Renville).
           The States and counties visited were selected based on an analysis
           of records showing the volume of program activity and input by
           agency officials. The review period was generally limited to
           activities that

           occurred during fiscal year 2000. However, older transactions were
           reviewed to the extent deemed necessary.

           Program records showed that the estimated project outlays for
           Illinois and Minnesota totaled about $473 million. This represented
           about 20 percent of the $2.2 billion approved nationwide as of June
           23, 2000. The records also showed that there were a total of 2,602
           approved CREP contracts in Illinois (271) and Minnesota (2,331).

           We reviewed supporting program records for a judgmental sample
           of    47 of 451 CREP contracts at the four counties visited. The
           sample contracts were selected based on the signup number,
           acreage enrolled, and practice type.

           The review was conducted in accordance with Government
           Auditing Standards. Accordingly, our review included tests of
           program and accounting records deemed necessary to meet the
           survey objectives.

                                        Our review included interviews with
       METHODOLOGY                      FSA and NRCS officials at the national,
                                        State and local levels. In addition, we
                                        interviewed SWCD and BSWR State
         office personnel in Illinois and Minnesota.

           At the national and State levels, we reviewed program activity
           reports to identify potential audit sites. This included any approved
           CREP agreements and associated correspondence files. We also
           reviewed FSA and NRCS CREP related policies, notices, and
           handbook instructions.

           Fieldwork at the local level generally consisted of reviewing the
           sample CREP contract files to determine if they were being
           administered in accordance with the provisions contained in FSA
           Handbook 2-CRP, the approved Memorandums of Understanding
           (State CREP Agreements), and Federal FSA and NRCS
           conservation reserve policies and procedures. We also verified
           that CREP payments were made in accordance with FSA
           regulations, the associated Memorandums of Understanding, and
           NRCS cost-share requirements. We also contacted producers in




USDA-OIG-A/03099-45-KC                                                  Page 3
          conjunction with onsite inspections of established practices on an
          as needed basis.




USDA-OIG-A/03099-45-KC                                               Page 4
         FINDINGS AND RECOMMENDATIONS


 CHAPTER 1        ADDITIONAL PROGRAM CONTROLS ARE
                  NEEDED


            The survey disclosed that material internal controls provided over
            the program were generally functioning as prescribed by
            management.       However, we concluded that the adoption of
            additional controls could further enhance CREP operations. For
            example, we found that FSA county office employees (COE) did not
            notify STO’s or the national office of situations where NRCS was
            not meeting its status review responsibilities. This prevented either
            agency from taking action to address the issue. In addition, FSA
            had not assessed the need for obtaining data on the easement
            periods applicable to CREP acres. This could result in the improper
            enrollment of such acreages in other available Federal programs,
            such as the CRP, prior to expiration of the easements.

                                      We did not find any evidence to support
       FINDING NO. 1                  the completion of annual status reviews
                                      for 34 of the 47 sample contracts
STATUS REVIEW REQUIREMENTS            reviewed.     Local NRCS personnel
           NOT MET                    stated that  the  limited availability of
                                      time and resources prevented the
                                      completion of such reviews. Also, FSA
          personnel at the local level had not taken action to notify the FSA
          STO’s that such reviews were not being performed. This did not
          provide either agency with reasonable assurance that the
          conservation plans were being implemented in a timely and
          complete manner.         It also permitted NRCS to receive
          reimbursements for services that were not performed.

            FSA Handbook 2-CRP (Rev. 3), paragraph 338B, provides that
            NRCS personnel are required to complete a status review with the
            participant and county office committee (COC) representative, if
            available, for each Form CRP-1, Conservation Reserve Program
            Contract, before the end of the fiscal year until all practices in the
            plan are applied and the approved cover is established. Vegetative
            and tree cover establishment is to be reported to FSA by a status
            review labeled “Final”.    The Memorandum of Understanding
            between CCC, FSA, and NRCS also provides for NRCS to receive



USDA-OIG-A/03099-45-KC                                                    Page 5
           a reimbursement of $456 for each accepted offer to offset the costs
           of providing various technical and administrative services. These
           include the completion of no more than three status reviews.

           The annual status reviews are designed to provide FSA with
           reasonable assurance that agreed-to conservation measures and
           practices are timely and properly applied. Each producer with an
           approved CRP contract, including CREP contracts, is subject to
           annual status reviews during the first 3-years of the contract period.
            NRCS personnel are responsible for conducting the associated
           onsite inspections. They also complete a supporting Form NRCS-
           LTP-03, Status Review, to document the inspection results. That
           form contains data on progress in applying the conservation plan,
           the need for any plan revisions and technical assistance, and
           whether the land is still under the participant’s control.

           Producers are subject to contract termination if the required
           practices have not been established by the time that NRCS
           personnel complete the final (third) status review. FSA personnel
           are responsible for conducting annual practice spot-checks after
           NRCS completes the final status review.

           The survey disclosed that only 12 of 47 sample contracts contained
           evidence of an annual status review even though each contract had
           been in effect for at least 1 year. In addition, the available
           documentation for a 3-year old contract only supported the
           completion of annual status reviews in the first and third years. It
           should be noted that FSA personnel maintained a log of CREP
           contracts referred to NRCS for a status review.
           As such, COE were aware of any backlogs at the local level.
           However, they did not notify the STO’s or national office that NRCS
           was not fulfilling its status review responsibilities.

                                   Direct the STO’s to provide feedback in
  RECOMMENDATION NO. 1             situations where NRCS has not carried
                                   out its status review responsibilities.
                                   Also, explore alternatives for ensuring
        ongoing compliance with this program requirement.

           FSA Response

           The written comments on the draft report (see exhibit A) showed
           that FSA would issue a notice requiring feedback on situations
           where NRCS did not meet its status review responsibilities. This
           included the number of occurrences and circumstances involved.
           The response also showed that FSA planned to strengthen the
           status review provisions contained in the reimbursable agreement



USDA-OIG-A/03099-45-KC                                                   Page 6
           with NRCS for fiscal year 2002.



           OIG Position

           We concur with the planned corrective actions for the audit
           recommendation. However, we will need to be advised of the
           actual or planned timeframes for implementation in order to reach
           management decision.

                                     FSA did not establish requirements for
       FINDING NO. 2                 obtaining data on the easement periods
                                     applicable to CREP acres.          Also,
    STATE EASEMENTS NOT              differences between the CREP acres
          IDENTIFIED                 shown on FSA records and those
                                     determined from land surveys may not
                                     be treated in a consistent manner. FSA
          STO personnel said they overlooked the need to obtain the
          easement period data at the time of program implementation. This
          could result in the improper enrollment of such acreages in other
          available Federal programs (e.g. CRP) during the period between
          expiration of the CREP contract and the associated easement.

           FSA Handbook 2-CRP (Rev. 3), paragraph 82, provides, in part,
           that eligible CREP acres include cropland that is physically and
           legally capable of being planted in a normal manner to an
           agricultural commodity as determined by the COC.

           The survey disclosed that Illinois and Minnesota offered different
           easement periods for land enrolled in the CREP. For example, the
           State of Illinois offered three different easement periods (15 years,
           35 years, and permanent). Similarly, the State of Minnesota
           offered three different easement periods (20 years, 35 years, and
           permanent).

           The same easement periods also applied to any additional acres
           taken at the time of CREP enrollment. For example, a Schuyler
           County, Illinois, producer was approved for two CREP contracts
           totaling 230.7 acres. However, the associated easement covered a
           total of 325 acres. This included the 230.7 acres enrolled in CREP
           and an additional 94.3 acres of non-CREP land.

           We also identified a potential problem with respect to the treatment
           of differences between the CREP acres shown on FSA records and
           those determined from the associated land surveys. For example,
           COE in Cass County, Illinois, stated that they would adjust CREP



USDA-OIG-A/03099-45-KC                                                  Page 7
            acres to reflect the land survey results if available. However, they
            were not aware that land surveys had been conducted on any of
            the CREP acres at the time of our review. Conversely, COE in
            Schuyler County, Illinois, stated they would probably not consider
            the land survey results unless instructed to do so by the STO.

            Our comparison of the CREP and associated land survey records
            disclosed acreage differences for 2 of 14 sample contracts in Cass
            County, Illinois, as follows:

                  Example                 No. of Acres                  Acreage
                    No.            Per FSA Per Land Survey             Difference
                     1               28.6            27.2                  1.4
                     2               88.4            86.2                  2.2
                   Total            117.0          113.4                   3.6

            A COE advised us that they used the acreages shown on the aerial
            photographs in cases where an entire field was enrolled in CREP.
            For the two cited contracts, the enrolled acreages consisted of
            whole fields. Also, FSA officials indicated that acres that are
            measured and guaranteed by the COE are to be used for payment
            purposes rather than land surveys.

            FSA Handbook 2-CRP (Rev. 3), paragraph 268, provides, in part,
            that acreage errors in CRP contracts are to be corrected when FSA
            becomes aware of such errors regardless of the size of the
            difference. The instructions further provide that prior overpayments
            resulting from overstated acreages will not be recovered.

            The importance of obtaining easement data on both CREP and
            non-CREP acres is evidenced by the fact that such acreages
            cannot be cropped during the easement period. Without this
            information, producers could be improperly allowed to enroll such
            acreages into other available programs prior to expiration of the
            easements.      Similarly, producers should receive consistent
            treatment of CREP acreages when determining the CREP
            payments.

                                    Determine the need for requiring
  RECOMMENDATION NO. 2              participating State entities to provide
                                    information on the location and length
                                    of easements obtained on CREP and/or
        non-CREP acres as a condition of agreement approval. Also, take
        action to ensure the consistent treatment of acreage differences
        resulting from land surveys conducted on CREP acres.

            FSA Response



USDA-OIG-A/03099-45-KC                                                  Page 8
           The written comments on the draft report (see exhibit A) indicated
           that FSA would request State CREP partners to furnish data on the
           easements obtained from CREP participants. This included aerial
           photography showing the location of such easements and the
           associated easement period. This would enable FSA to denote the
           easement data on its aerial photography. The response also
           showed that FSA would issue a notice designed to ensure the
           consistent treatment of any identified acreage differences between
           its official measurements and those obtained during land surveys.

           OIG Position

           We concur with the planned corrective actions for the audit
           recommendation. However, we will need to be advised of the
           actual or planned timeframes for implementation in order to reach
           management decision.

                                       FSA personnel did not always properly
      FINDING NO. 3                    complete Forms CRP-1, Conservation
                                       Reserve Program Contract, and CRP-
    NONCOMPLIANCE WITH                 2, Conservation Reserve Program
      DOCUMENTATON                     Worksheet. FSA personnel advised us
       REQUIREMENTS                    that inexperienced personnel, together
                                       with the limited availability of time and
                                       resources,         prevented          the
         documentation requirements from being met. NRCS personnel
         also advised us that they did not return incomplete Form CRP-2’s
         to FSA because they believed the missing data was not critical and
         was available from other supporting records. However, having
         reliable data is important to maintain program integrity.

           FSA Handbook 2-CRP (Rev. 3), paragraph 155B, provides, in part,
           that all item numbers must be completed before the offer data is
           entered into the automated system and transmitted to the State
           office. Those instructions also provide that NRCS personnel are to
           return any incomplete Form CRP-2’s to FSA for completion. These
           instructions also provide that COE are not to process any offers
           until the supporting Form CRP-2’s are read, signed, and dated by
           the producers. The Memorandum of Understanding between CCC,
           FSA and NRCS also contains similar language.

           Our review of the supporting Form CRP-1’s and CRP-2’s for a
           judgmental sample of 47 CREP contracts in the 4 counties visited
           disclosed the following examples of missing or incomplete
           documentation:




USDA-OIG-A/03099-45-KC                                                  Page 9
          Form CRP-1, Conservation Reserve Program Contract

          •   The total cost-share data (Block 12E) was not documented in
                  24 cases (Cass and Schuyler Counties);

          •   The first year payment amount (Block 11C) was not
              documented in       12 cases (Cass, Redwood, Renville, and
              Schuyler Counties);

          Form CRP-2, Conservation Reserve Program Worksheet

          •   The total cost-share amount (Block 8) was not documented in
                  12 cases (Cass County);

          •   The forms were not signed and/or dated (Block 40) by the
              producer in six cases (Cass County);

          •   The rental rate per acre offer (Block 9) was not documented in
              four cases (Cass County).

          Properly completed CRP documents, especially those that
          represent contractual obligations, are important for program
          administration purposes.

                                     Issue a directive reminding State and
  RECOMMENDATION NO. 3               CO personnel of the importance of
                                     ensuring complete and accurate Form
                                     CRP-1’s and CRP-2’s.

          FSA Response

          The written comments on the draft report (see exhibit A) showed
          that FSA would issue a notice reminding State and county office
          personnel of the importance of ensuring complete and accurate
          Form CRP-1’s and CRP-2’s.

          OIG Position

          We concur with the planned corrective action to address the audit
          recommendation. However, we will need to be advised of the
          actual or planned timeframes for implementation in order to reach
          management decision.




USDA-OIG-A/03099-45-KC                                             Page 10
EXHIBIT A – FSA RESPONSE TO DRAFT REPORT




USDA-OIG-A/03099-45-KC                     Page 11
USDA-OIG-A/03099-45-KC   Page 12
USDA-OIG-A/03099-45-KC   Page 13
USDA-OIG-A/03099-45-KC   Page 14
